<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                            VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

              S. 371, H.R. 2484, H. Res. 351, H. Res. 354

                            and H. Res. 355

                               __________

                              MAY 25, 2017

                               __________

                           Serial No. 115-34

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-557PDF                    WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e582958aa5869096918d808995cb868a88cb">[email&#160;protected]</a>                                 
                                 
                   
                      COMMITTEE ON FOREIGN AFFAIRS
                      
                  
                     
                      

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

S. 371, A bill to make technical changes and other improvements 
  to the Department of State Authorities Act, Fiscal Year 2017...     2
  Amendment to S. 371 offered by the Honorable Eliot L. Engel, a 
    Representative in Congress from the State of New York........    11
  Amendment to S. 371 offered by the Honorable Edward R. Royce, a 
    Representative in Congress from the State of California, and 
    chairman, Committee on Foreign Affairs.......................    13
H.R. 2484, To ensure that the United States promotes the 
  meaningful participation of women in mediation and negotiation 
  processes seeking to prevent, mitigate, or resolve violent 
  conflict.......................................................    14
H. Res. 351, Condemning the violence and persecution in Chechnya.    26
  Amendment to H. Res. 351 offered by the Honorable William 
    Keating, a Representative in Congress from the Commonwealth 
    of Massachusetts.............................................    30
H. Res. 354, Condemning the violence against peaceful protesters 
  outside the Turkish Ambassador's residence on May 16, 2017, and 
  calling for the perpetrators to be brought to justice and 
  measures to be taken to prevent similar incidents in the future    31
H. Res. 355, Condemning in the strongest terms the terrorist 
  attacks in Manchester, United Kingdom, on May 22, 2017, 
  expressing heartfelt condolences, and reaffirming unwavering 
  support for the special relationship between our peoples and 
  nations in the wake of these attacks...........................    36

                                APPENDIX

Markup notice....................................................    58
Markup minutes...................................................    59
Markup summary...................................................    61
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    62
The Honorable Darrell E. Issa, a Representative in Congress from 
  the State of California: Prepared statement....................    64

 
                            VARIOUS MEASURES

                              ----------                              


                         THURSDAY, MAY 25, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:40 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. Pursuant 
to notice, we meet today to mark up five bipartisan measures. 
Without objection, all members may have 5 days to submit any 
statements or any extraneous material for the record on today's 
business. As members were notified yesterday; we intend to 
consider today's measures en bloc. And so without objection, 
the following items previously provided to members will be 
considered en bloc, and are considered as read. We have Senate 
bill 371, the Department of State Authorities Improvements Act, 
with Engel amendment 34 and Royce amendment 35 to that Senate 
bill; we have H.R. 2484, the Women, Peace, and Security Act of 
2017; House Resolution 351, Condemning the violence and 
persecution in Chechnya, along with the Keating amendment 12 to 
House Resolution 351; we have House Resolution 354, Condemning 
the violence against peaceful protesters outside the Turkish 
Ambassador's residence on May 16, 2017; and we have House 
Resolution 355, Condemning the terrorist attacks in Manchester, 
United Kingdom, on May 22.
    [The information referred to follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Royce. I now recognize myself to speak on today's 
business. And moving onto the markup agenda, speaking a little 
bit here about Senate bill 371, this makes several technical 
and minor corrections to the State authorities bill that became 
law at the end of last year. But in particular, this measure 
ensures that the authorizing and Appropriations Committees of 
the House and Senate continue to work closely together on 
oversight of the Department of State and foreign operations 
accounts.
    We are also taking up, as I mentioned, H.R. 2484, the 
Women, Peace, and Security Act. Now, last year this committee 
held a hearing where we heard powerful testimony about the 
importance of including women in peace negotiations around the 
world. We heard specifically from some of the women who helped 
set the fundamental agreement, the Good Friday agreement in 
Ireland, the peace agreement there. We also learned of some of 
the personal tragedies visited upon them and their loved ones 
as a result. But they stuck with that and were instrumental to 
that Belfast agreement being completed. And it has brought 
peace.
    So women have the fundamental right to be represented in 
discussions affecting their lives. But when we also see better 
outcomes when they participate, as we have in terms of peace 
holding around the world whenever women are also involved in 
these negotiations, other than just factions or warlords or 
governments, represented solely by men, we begin to understand 
the importance of this particular agreement. Peace agreements 
are more likely to be reached and last when women are involved.
    Promoting women's participation represents an opportunity 
for improving U.S. efforts to resolve conflicts, improve 
peacekeeping missions, and counter human trafficking. So I 
thank Ranking Member Engel and the bill's sponsors, 
Representatives Noem and Schakowsky, for their excellent work 
on this bipartisan issue.
    I also want to thank Ranking Member Engel for working with 
me on House Resolution 354, condemning the unwarranted attack 
last week on peaceful protesters outside the Turkish 
Ambassador's residence. That evening, armed members of 
President Erdogan's security detail savagely beat and choked 
and kicked protesters in an unprovoked assault aimed at 
silencing these American citizens' right to free speech and 
assembly. And this isn't the first time this has happened with 
the Turkish delegation to the United States.
    This timely resolution sends a clear signal to the Turkish 
Government that we will not allow any foreign government to 
stifle the rights of our citizens. It also calls on the State 
Department and Secret Service to review their security 
procedures to prevent another incident like this from 
occurring. This is the third incident. The rights of free 
expression and peaceful protest are fundamental values in any 
democracy. By passing this resolution, we reaffirm our 
commitment to protect these rights against all who seek to 
suppress them.
    I also want to thank Representatives Meeks and Cook for 
working quickly to introduce House Resolution 355, condemning 
the terror attack in Manchester. This nail bomb set off by a 
suicide bomber claimed the lives of 22 innocent people, many of 
them children, many of them teenagers, leaving a concert on 
what should have been a joyful and carefree occasion. It left 
many, many people maimed as a result. And this resolution 
rightly condemns this horrific attack and pledges our 
unwavering support to the United Kingdom.
    Lastly, we consider House Resolution 351, condemning the 
violence and persecution in Chechnya, where Chechen strongman 
Ramzan Kadyrov is waging a brutal campaign against men who are 
gay, including their abduction, their detention, their torture. 
The Russian newspaper which broke this story has also been 
threatened.
    There needs to be a serious investigation and a stop to 
this medieval violence. Russia cannot tolerate such intolerable 
brutality and also purport to be worthy of participating on the 
global stage. I want to thank Chairman Emeritus Ros-Lehtinen, 
Ranking Member Engel, and Representatives Issa and Cicilline 
and Smith for their work on this important resolution. I also 
appreciate the amendment offered by Representative Keating, 
which makes clear that the perpetrators of this violence should 
be vetted for sanctions against human rights law.
    I now recognize the ranking member for his remarks.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling this morning's markup. I am also pleased to support 
this entire slate of good bipartisan measures. I hope at our 
next markup we can get to marking up the bill I introduced with 
Mr. Connolly, the SECURE Our Democracy Act. The bill represents 
a tough response to Russia's interference in last year's 
election, and it would send a clear message that if you meddle 
in American democracy, there are going to be consequences. It 
is a commonsense bill, and we are moving in a positive 
direction to make it a bipartisan measure. So I hope the next 
time we have this markup, the bill will have bipartisan 
support, and we will be able to advance the bill.
    With respect to the measures before us today, the committee 
is taking quick action to respond to two troubling events in 
recent days. The first, as you mentioned, Mr. Chairman, is a 
resolution condemning the barbaric attack that ripped through 
an arena in Manchester, England, earlier this week. Mr. 
Chairman, the horrific evil deliberately targeted innocent 
children. Many of us have sons or daughters and we certainly 
know the happiness and sense of community we feel going to 
concerts with friends and family when we were younger, and that 
our children feel the same way today.
    This attack reminds us of the threat violent extremism 
poses, the sort of indiscriminate carnage terrorists are 
willing to inflict. In the wake of this tragedy, we stand with 
our British partners and friends in mourning and recovery as we 
work together to meet this shared challenge. This was not just 
an attack on the U.K., it was attack on civilization. I am 
pleased to support this measure, which sends this important 
message.
    Secondly, I am sure we have all seen video of what happened 
last week at a protest of Turkish President Erdogan's visit. I 
was shocked. The last thing we expect to see in the United 
States is a strongman's thugs silencing peaceful protesters. I 
had been invited actually to go to that meeting at the Turkish 
Embassy. I didn't go, and I am glad I didn't go, because I was 
just horrified when I heard what happened. Turkey is a NATO 
ally and a key partner on many issues. But what happened last 
week is unacceptable. This resolution calls for those 
responsible to face justice. This is a much bigger issue. We 
have seen a troubling pattern from Turkey in recent years. But 
if Turkish Government officials come to our country and try to 
stifle American democracy and freedom of speech, there must be 
consequences.
    I am also pleased to support the Women, Peace, and Security 
Act offered by Representatives Schakowsky and Noem. This bill 
has its roots in the Obama administration's 2011 Executive 
order on women, peace, and security. This order took into 
account the fact that a range of global issues are better 
addressed when women are involved. Conflict prevention, crisis 
resolution, peace building--research has shown again and again 
and again that when women are at the center of these processes, 
the outcomes are better.
    So a few years ago, President Obama and Secretary of State 
Clinton took steps to ensure our foreign policy focused on 
getting more women involved when it came to resolving these 
challenges. Since then, we have seen good results, and we want 
to make those results permanent. This bill, which we advanced 
last Congress, would put into law parts of the Executive order 
and work to build even more on these earlier successes. I am 
pleased to cosponsor this bill, and I hope this time around, we 
are able to get it across the finish line. I ask unanimous 
consent to enter the co-author of this legislation, 
Representative Jan Schakowsky of Illinois', statement into the 
record.
    Chairman Royce. Without objection.
    Mr. Engel. Thank you, Mr. Chairman. I am also a proud 
cosponsor of a resolution condemning the unlawful detention, 
torture, and murder of gay men in Chechnya. Hundreds of gay men 
have been rounded up by local Chechen authorities, some killed 
and some tortured because of their sexual orientation. Chechen 
authorities deny this and the Kremlin looks the other way. But 
the truth has found its way into the light, and now is the time 
for people around the world to speak out against these abuses. 
President Putin must end these abuses. He must respect and 
promote the dignity of all persons, and provide safe haven for 
all those fleeing such horrific persecution. I want to thank 
Representatives Ros-Lehtinen and Cicilline for their hard work 
on this measure.
    Lastly, I am glad we are advancing the bill to make a 
number of minor technical corrections to our State Department 
authorization legislation that President Obama signed into law 
last year. During the last Congress, for the first time since 
2002, this committee worked together in a bipartisan manner to 
get a State Department authorization bill to the President's 
desk. I was very pleased with it. The chairman worked very hard 
on it, and so did I, and so did members of this committee. Our 
legislation helped to modernize the Department, and provide our 
diplomats with the tools and resources they need to do their 
jobs. Diplomats are at the front line of American foreign 
policy, and their efforts are needed now more than ever. So I 
want to thank all of our members for their hard work on these 
measures. And again, Mr. Chairman, thank you for holding this 
markup. I yield back.
    Chairman Royce. Thank you, Mr. Engel. We go to Ileana Ros-
Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman and 
Ranking Member Engel. It was a pleasure to have worked with 
both of you, along with Mr. Issa, Mr. Cicilline, and Mr. Smith, 
in introducing House Resolution 351, condemning the violence 
and persecution in Chechnya. This committee has a longstanding 
tradition of speaking out on behalf of marginalized populations 
all over the world, especially those who live under the shadow 
of oppression and tyranny. We know that freedom and human 
rights are universal, and for all people to enjoy, no matter 
their sexual orientation, gender identity, religion, race, or 
any other basis. And because we believe in this cause, this 
body cannot sit idly by while hundreds of men are being beaten 
and tortured, and some even killed by Chechen authorities.
    This bipartisan resolution calls on the Chechen leader to 
immediately cease the abduction and violence of men based on 
their real or perceived sexual orientation, and calls on Putin 
to uphold international commitments and protect the human 
rights of all people. We have a responsibility to answer to the 
plight of this vulnerable community, call for swift action to 
end these atrocities, and ensure that the perpetrators are 
brought to justice. I thank every one of our colleagues from 
both sides of the aisle who have added their names in support 
of this resolution, which sends a unified message that the 
United States remains committed to promoting human rights, and 
that this crisis must end now.
    I would also like to offer my support to House Resolution 
354, the chairman and ranking member's measure condemning the 
violence by Turkish President Erdogan and his security detail 
against protesters here in Washington last week.
    Later today, my friend and Florida colleague, Gus 
Bilirakis, and I<greek-l>, deg. will be sending a letter to the 
Department of Justice and the Department of State asking for 
immediate accountability from the Turkish Government for these 
disgraceful attacks. This behavior is intolerable. Allies do 
not attack U.S. citizens on American soil. And foreign 
nationals who cannot respect the rule of law in our great 
Nation should not be able to enjoy its rights and privileges. 
Our letter asks those involved in last week's attacks be 
brought to justice immediately, with the participating Turkish 
personnel in the U.S. expelled, and those abroad barred from 
future entry.
    Many of our colleagues here today have already added their 
names to the letters, and I hope that anyone interested can add 
their names as well. I offer my full support to the chairman 
and ranking member's resolution, and encourage my colleagues to 
do the same. Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Ileana. Bill Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. I would like to thank 
you and the ranking member for holding this markup, and offer 
my support to all the measures that are being considered, and 
of which I am proud to cosponsor. These include the Women, 
Peace, and Security Act, where we underscore that women, 
participating as meaningful actors in national security issues, 
make us safer, and it is critical if we are going to be 
effective in addressing the complex security issues that face 
us today.
    It also includes a resolution condemning the violence in 
front of the Turkish Embassy. I would also like to thank 
Congressmen Meeks and Cook, as well as the chairman and ranking 
member, for offering the resolution condemning the terrorist 
attack in Manchester this week. As a parent myself, my heart 
goes out to the families and communities affected by this 
callous and cowardly act.
    I would also like to thank the chairman and ranking member, 
as well as the fellow members on the committee, Congresswoman 
Ros-Lehtinen, Congressmen Cicilline and Smith, for their 
leadership in introducing the resolution condemning the 
violence in Chechnya. The violence being perpetrated by state 
actors against innocent men in Chechnya is despicable, and it 
is critical that we speak out against these horrific crimes. In 
addition, I have offered my amendment included in the en bloc 
because it is important that our President speak up and take 
action as well to help ensure that this administration acts in 
accordance with two very important human rights laws brought 
forward through our committee. My amendment calls on our 
Government to identify those individuals who must be sanctioned 
for their heinous acts of violence under the Magnitsky Rule of 
Law and Accountability Act and the Global Magnitsky Human 
Rights Accountability Act.
    All of these things we are dealing with today were done on 
a bipartisan basis, and again, speaks to the importance of this 
committee as a strong voice in our country's policy going 
forward. I would like to thank all members of the committee for 
their cooperative efforts. And I yield back.
    Chairman Royce. I thank the gentleman for yielding back. We 
go to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. I want to 
thank you and Ranking Member Engel, again, for putting forward 
a very, very good grouping of bipartisan bills and resolutions. 
And I support them all. I want to make special note that the 
resolution on the violence against American citizens outside 
the Turkish Embassy after Erdogan had visited with President 
Trump is especially egregious. There is a woman from New 
Jersey. Her name is Ceren Borazan. She lives in East 
Rutherford, New Jersey. As she has pointed out, a security 
officer put her in a headlock, threatened to kill her during 
the altercation.
    Like many members of this committee, I am sure, I watched 
the video depiction of this, and the police couldn't even 
contain it when these thugs from Erdogan's government went 
after American citizens. She was hurt during this. She is 
asking for justice. And she absolutely deserves it. And at 
least 12 people, including a police officer, were hurt during 
the melee. And as she said, violence is never an appropriate 
response to free speech.
    We support the rights of people everywhere. This is 
something that the U.S. Department of State said. And again, a 
New Jerseyan and people from throughout our country were hurt 
by these so-called security officers.
    I also want to thank Ileana Ros-Lehtinen for her leadership 
on H. Res. 351. The fact that it appears to be beyond any 
dispute that about 100 men, due to their actual or suspected 
sexual orientation, were abducted, detained, and tortured, and 
as many as three have been killed, maybe more. That is 
outrageous. And that needs to be condemned roundly, as this 
legislation does.
    Then, of course, the Manchester attacks. Again, another 
senseless manifestation of radical jihadist hate that needs to 
be roundly criticized. This resolution would put the entire 
U.S. House of Representatives on record in so doing.
    And again, the new bill, Kristi Noem's Women, Peace, and 
Security Act, is another very strong assertion, backed by 
truth, that we need more women in peacemaking capabilities and 
capacities in government and elsewhere. And I think this is a 
very good affirmation by this committee and then, by extension, 
by the Congress to do just that. And I thank the chair and I 
yield back.
    Chairman Royce. I thank the gentleman. Mr. David Cicilline 
of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
and the ranking member for holding this markup today to 
consider five important bipartisan pieces of legislation, which 
I am proud to support. I would like to start by conveying my 
sincere condolences to the families, friends, and loved ones of 
those who were lost and those who were injured in this 
despicable act of terrorism that took place in Manchester this 
week. Their suffering has, in many ways, just begun, and I will 
keep them in my prayers as they move forward from this 
despicable attack.
    Before I address the legislation before us today, I regret 
that I have to, once again, register my profound disappointment 
that it is now almost June and this committee still has not 
considered a single piece of legislation to respond to the 
unprecedented attack leveled against us by Russia last year. As 
17 of our intelligence agencies agree, throughout the 2016 
Presidential campaign, Russia carried out a large-scale 
concerted hacking and propaganda effort meant to undermine our 
democracy and interfere in our elections.
    More than 2 months ago, we held an eye-opening hearing on 
Russia's ongoing attempts to undermine Western democracies, 
during which we heard from witness after witness that Russia's 
intentions are clearly to weaken the United States, our 
partners, and our alliances. Yet, this Congress has done 
nothing to respond to this attack. This is nothing short of an 
abrogation of our responsibility as lawmakers. I have spoken in 
the past in support of legislation that I have introduced, 
legislation that Mr. Engel and Mr. Connolly have introduced.
    But I implore you, Mr. Chairman, if you don't like our 
bills, let's consider something, anything that will show the 
Russians and other countries, who we know are watching, that 
there will be consequences for the interference in our 
democratic elections. The longer we let the issue of Russian 
interference go unaddressed, the more it interferes with the 
other important and bipartisan issues that we all want to see 
move forward.
    We are considering pieces of legislation today that have 
strong bipartisan support and tackle extremely timely and 
serious issues. I want to thank the chairman and ranking member 
for the work they have done to ensure that these measures come 
to the committee quickly and in a bipartisan way.
    I want to thank Mr. Meeks for introducing H. Res. 355, 
which condemns the terrorist attacks in Manchester, and 
reiterates our dedication to fighting extremism and terrorism 
worldwide, while paying tribute to the British first responders 
who acted selflessly in the face of danger. Our thoughts and 
prayers are with the victims, their families, and the British 
people. We stand strongly united with our close ally, and 
together, we will continue to fight against those who threaten 
to destroy democratic values through violent and nonviolent 
means.
    I want to thank my friend, Congresswoman Ileana Ros-
Lehtinen, for introducing H. Res. 351, which condemns the 
violence and persecution in Chechnya. She, along with Chairman 
Royce and Ranking Member Engel, has shown great leadership in 
making sure that the atrocities being perpetuated against gay 
men in Chechnya do not go unnoticed. And she has been a strong 
voice for many years in condemning violence and hate against 
the LGBT community.
    I would also like to thank Mr. Smith, Mr. Issa, and Mr. 
Lowenthal for their work on this resolution as well. I also 
want to voice my support for the amendment being offered by my 
colleague, Mr. Keating, to this legislation, that will make 
clear that the brutal targeting of suspected gay men by Chechen 
authorities is sanctionable under U.S. law. This resolution 
will send a strong message to Chechen officials who have 
overseen the arrest, detainment, torture, and murder of gay, or 
suspected gay men. The language being used by Chechen 
authorities in respect to these activities is shocking, with 
reports that President Kadyrov has indicated that he wants to 
wipe Chechnya free of any gay men before Ramadan. This type of 
language and the concerted campaign against the gay men of 
Chechnya is an atrocity that must be condemned in the strongest 
terms by the international community.
    I would also like to speak out in support of H. Res. 354, 
condemning the violence against protesters outside the Turkish 
Ambassador's residence on May 16, of which I am a cosponsor. 
The attacks carried about by President Erdogan's so called 
security detail against American citizens and legal residents 
were absolutely appalling and will not be tolerated. I look 
forward to covering this issue in more depth in the 
subcommittee hearing on this topic this afternoon. And once 
again, I would like to thank the sponsors of each of these 
pieces of legislation and reemphasize my strong support. With 
that, I yield back.
    Mr. Connolly. Would my friend yield?
    Mr. Cicilline. Yes, of course.
    Mr. Connolly. I thank my friend from Rhode Island. I just 
wanted to add my voice. I am very pleased at the bipartisan 
pieces of legislation in front of us and happy to support them. 
But I exhort the chairman, it was our understanding that the 
Engel-Connolly bill on sanctions against countries that 
interfere in our elections was going to be in the markup 
scheduled today. It was pulled. And we would welcome some 
direction from the chairman as to when it might be rescheduled. 
We think this is an important statement we hope will be 
bipartisan. And I would ask the chairman if he could respond. 
And I thank my friend for yielding.
    Chairman Royce. I know there is interest in Mr. Engel's 
efforts to press back on election hacking and on interference 
by the Russian Government in our election. And Mr. Cicilline's 
as well. We are looking at both measures. We are working to try 
to develop bipartisan support for both measures. I will say 
that we do have sanctions on nine Russian entities now. We have 
sanctions on the GRU, we have sanctions on the FSB, their two 
main intelligence services, and also sanctions on the 
individual officers of the GRU, four of them that were 
involved, along with three companies that provided material 
support for the GRU.
    We are looking at ways of sending an additional message. I 
will mention also that last week, the House passed this 
committee's legislation to throw the book at Russia in terms of 
other activities, including their activities in supporting the 
Syrian regime and arms to the Syrian regime. So my hope is to 
keep working with the members to continue to highlight Russia's 
dangerous activities and advance legislation in a way that all 
the members can support.
    Mr. Connolly. If the chairman would just indulge a follow-
up.
    Chairman Royce. Yes.
    Mr. Connolly. With respect to the Engel-Connolly bill, is 
it the intention of the chairman to, at some point, schedule 
that for markup?
    Chairman Royce. I wish to schedule that for markup.
    Mr. Connolly. I thank the chair.
    Chairman Royce. I hope to. I also hope to try to work out, 
you know, on our ballistic missile legislation. I am trying to 
work that in a way that all members can support it. But we will 
continue to try to do that.
    Mr. Connolly. I know both Mr. Engel and I would be glad to 
work with the chair to make that happen. Thank you.
    Chairman Royce. Thank you. Mr. Joe Wilson of South 
Carolina.
    Mr. Wilson. Thank you, Chairman Ed Royce, for your 
bipartisan leadership with Ranking Member Eliot Engel to 
expedite these important resolutions. I support all the 
legislation being considered today, but in particular, House 
Resolution 355, which condemns, in the strongest terms, the 
murderous terrorist attacks in Manchester, United Kingdom, on 
Monday night. This serves as a sober reminder of our ongoing 
fight against terrorism at home and abroad in the global war on 
terrorism. This slaughter was a direct targeting and mass 
murder of children. It has been correctly identified by Prime 
Minister Teresa May that the murderers who have conducted this 
are cowards, correctly identified by President Donald Trump as 
losers.
    As the co-chairman of the EU and U.K Caucus, I am deeply 
saddened by these attacks. Thank you again, Chairman Royce, 
thank you, Ranking Member Engel, for your support and 
expeditious consideration of the resolution. I would 
additionally like to ask my honorable cochair of the EU Caucus, 
Congressman Greg Meeks, to add me to this resolution as soon as 
possible. Thank you very much.
    Chairman Royce. We go to Mr. Greg Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman. And I want to thank 
you, Chairman Royce, and Ranking Member Engel for us working 
together in a bipartisan manner on these resolutions, of which 
I support all of them. First, I want to speak to, of course, H. 
Res. 355, which condemns the recent attacks in Manchester. I 
think this gives us an opportunity, again, to show a single 
voice from our committee, and it gives all the Members of the 
House a chance to voice condolences to the families and friends 
of those who were killed in these wicked bombings. And I pray 
that the Manchester community is able to remain strong and to 
continue its beautiful human display of kindness in the depths 
of such tragedy as we saw, and Prime Minister May talked about. 
Even with such bad circumstances, you see such good coming from 
human beings as they work together.
    And I think that our hearts reach out to them. The world 
needs to know that when we have these kinds of instances, we 
are one. I think this resolution tends to give them the message 
to let them know that we are with the people of Manchester, and 
we are as one.
    I also want to just quickly give special recognition to and 
thank the sponsors for H. Res. 351, condemning the violence and 
the persecution in Chechnya. The persecution and suppression of 
human rights seems unfortunately not to be new in Chechnya. But 
the recent violence directed toward gay men at the hands of 
authorities is completely inhumane and a disturbing reality. 
Anyone who looks at the fiefdom of the warlord who seems to be 
running that area, Mr. Kadyrov, knows that whether you are a 
journalist or a politician, you know, if you try to look into 
anything that he is doing, there are grave consequences.
    But when you look at these acts--I know from when I have 
grown up, that injustice anywhere is a threat to justice 
everywhere. And so when we see these things happening, our 
voices must be heard. We cannot be silent and allow human 
beings to be treated in this way. So I thank the sponsors of 
this legislation, this resolution, because I think our voices 
need to be heard and people know that we are not going to be 
tolerant of inhumane acts to human beings.
    Finally, let me also lend my voice to what we have all 
witnessed in horror what protesters in front of the Turkish 
Ambassador's residence were forced to experience. Mr. Erdogan's 
posse outside seemed to have done the same thing previously. 
But for me, it still strikes at home, because you see, I am one 
that have been known at times, and if there is something I feel 
is unjust and not right, I go out and I protest in front of 
Embassies. And so, therefore, it is a way to speak, and whether 
you agree or disagree, you are supposed to have the freedom, 
especially here in the United States.
    So it cannot go without my voice being heard that those 
brutal beatings of protesters who were just protesting and 
giving their voices, we must make sure that democracy and 
freedom of speech and being able to talk, even if you disagree 
with the administration or not, your voice needs to be heard. 
What took place was horrific, and we all need to speak out 
against that. So I hope that Turkey, who is a NATO ally, 
understands that we have certain responsibilities as NATO 
allies to protect democracy and to move forward together as a 
democratic society. That means all voices, all voices have the 
right to be heard. I yield back, Mr. Chairman.
    Chairman Royce. I go to Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. I would like to speak on 
two of these bills, House Resolutions 354 and 355. Turkey has 
been on a downward spiral under the aspiring dictator Erdogan. 
Erdogan has spared no effort to undermine Turkey's democratic 
institutions, and he attacks civil liberties in Turkey. Now 
Erdogan thinks he can bring his crackdown on basic rights to 
the United States, to Washington, DC, the seat of democracy in 
the world. Last week, when demonstrators peacefully protested 
outside the Turkish Ambassador's home, they were attacked by 
Erdogan's bullies. His security beat and kicked and choked 
unarmed protesters. Video shows that Erdogan watched, and by 
watching, he gave a tacit approval to what was going on because 
he did nothing except walk into the Embassy. This kind of 
vicious behavior is unacceptable anywhere in the world, but 
especially here in America, in Washington, DC.
    That is why I strongly support this resolution, which 
condemns this violence and calls on our government to raise the 
issue with Turkey. Freedom of expression is essential to the 
foundation of America. And it is clear that Erdogan does not 
honor this most basic right. But I am just incensed that he 
would bring his concept of no free speech to the United States. 
This attack by a foreign dictator on our constitutional basic 
right of speech is most disturbing. So while Erdogan continues 
his path of dictatorship in Turkey by violently quashing all 
opposition, this resolution sends, I hope, a message we will 
have no foreign tyrant violating our sacred rights on American 
soil. Justice demands that something occur and that he be held 
accountable, and Turkey be held accountable. Because justice is 
what we do in this country.
    In regarding the murder of the innocents in Manchester, as 
those fans streamed out of a concert in Manchester, they were 
met with the worst kind of evil, ISIS. And we must call ISIS 
out for what they are. They are an evil group of people who 
murder children and anybody else. The terrorist lay in waiting, 
timing his bombing attack to create maximum damage as people 
were leaving the concert. We know that at least 22 innocent 
people were murdered, including children. The attack claimed by 
the ISIS killers is not the first to haunt Europe, and it is 
probably not going to be the last until ISIS is completely 
defeated. I strongly support this bill and offer my sincere 
condolences to the victims and to the families. And I want to 
acknowledge the brave efforts of the first responders, who were 
quickly there to save many lives that dark night. Many people 
who we will never know their identity, but they were there 
helping to rescue, because that is what first responders do, 
wherever they are in the world.
    Islamist terrorist groups continue to threaten peace and 
security worldwide. Free nations need to understand and work 
together to defeat ISIS in a coordinated effort. Otherwise, 
ISIS will continue to pop up its ugly head and take advantage 
of peace and try to make a statement by killing folks that they 
don't agree with.
    So I support both of these. I am glad to be a cosponsor of 
both of these. And I also want to make one other comment 
regarding what Congressman Meeks said about the protesters out 
in front of the Turkish Embassy. I would encourage them to go 
back to the Turkish Embassy and protest again. Do it again. And 
keep protesting. And stay out there. Because no foreign tyrant, 
as I said, has the right or the ability to drive them away. So 
for whatever it is worth, I would encourage them to go back. 
You might find Mr. Meeks out there with them, and myself as 
well.
    Mr. Rohrabacher. Will the gentleman yield for a question?
    Mr. Poe. I will.
    Mr. Rohrabacher. If the protesters return to the Turkish 
Embassy, as you have just suggested they do, in order to, 
number one, draw attention to this monstrous attack on American 
soil of Americans by these goons from Turkey, if they do that, 
will you go with me and join them for a few minutes?
    Mr. Poe. Yes. Let's go together. We will bring Congressman 
Meeks with us as well.
    Mr. Cicilline. Will the gentleman yield? I will join you as 
well.
    Mr. Poe. Maybe we should just recess over to the Turkish 
Embassy.
    I will yield back.
    Chairman Royce. I think the gentleman's time has expired.
    Mr. Espaillat of New York.
    Mr. Espaillat. Thank you, Chairman Royce and Ranking Member 
Engel. I commend you on this bipartisan work of this committee 
in moving these five very, very important bills forward. I join 
my colleagues in standing with the people of Manchester. I 
mourn for the young lives that were taken too soon in Monday's 
terrorist attack. Make no mistake, this was an act of terror. 
It was stone cold and heartless. As a parent, I can't even 
imagine the heartbreak that these families are experiencing.
    I also stand with the LGBT community in Chechnya, and 
Chechnya's LGBT cleansing must stop. This campaign is a crime 
against humanity. And the atrocities being committed against 
the LGBT Chechens must stop. The U.S. Government can and should 
do much more. I am proud to sit on this committee that is 
willing to go on the record in publicly condemning the violence 
and the persecution in Chechnya. President Putin and the 
Kremlin need to investigate, prosecute, and protect the LGBT 
Chechens. I hope that this is a wakeup call for President Trump 
to defend and acknowledge LGBT lives across the world.
    Lastly, I am proud to support the Women, Peace, and 
Security Act of 2017, which makes permanent the Obama 
administration's policy to seek greater involvement for women 
in conflict prevention, resolution, and recovery efforts. Women 
here and around the world are the spine and a critical part of 
the peace-building efforts. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. We go now to Mr. Paul Cook of 
California.
    Mr. Cook. Thank you, Mr. Chairman. Before I start, I want 
to know if Mr. Rohrabacher is going to be soliciting 
contributions for bail money for himself and the rest of the 
Members that will be joining him outside the Turkish Embassy. 
Anyway, I am honored to join Representative Meeks in sponsoring 
House Resolution 355, condemning the terrorist action in 
Manchester, but saddened that it is necessary. Just as one 
horrifying terrorist attack in the United Kingdom left the 
headlines, we are, once again, reminded of the constant threat 
we face. For the second time in 2 months, the British people 
find themselves in mourning for the victims of a terrorist 
attack. Our thoughts and prayers are with the victims of the 
Manchester attack, and with all of our friends in the United 
Kingdom.
    Just last month, I led a congressional delegation to the 
United Kingdom. Our visit came on the heels of a horrendous 
terrorist attack in London on March 22. We laid wreaths on 
Westminster Bridge, and inside Westminster Hall, to honor the 
victims of that attack. It was an honor for us to participate 
in that event, which highlighted the unbreakable bond we share 
with the British people.
    While that solemn occasion left us with heavy hearts, it 
also left us with an even stronger sense of resolve. The 
British and the American peoples are no strangers to outside 
enemies wishing to destroy our way of life. We have stood side 
by side to triumph in these fights before, and have become 
stronger partners for the fights to come. During our 
discussions with officials in London, it was clear that all of 
us shared a fierce determination to prevent the next attack. 
Despite our successes and the many plots we have stopped, our 
failure rate remains much too high. It has been said many 
times, but it is worth repeating: We have to be right every 
time; the terrorists only have to be right once. Although the 
threat of terrorism is not new, it is rapidly changing. The 
terrorists are simplifying their methods, making it harder on 
us to prevent these low tech attacks. Terrorist groups have 
adjusted their strategies for recruitment and found new ways to 
capture the minds of disillusioned youth and inspire attacks 
around the world. We must never grow comfortable with the 
occurrence of these attacks, or numb to the depravity of our 
enemy.
    As the Manchester attack shows, there is no target too 
innocent or sacred, not even a crowd of children. I am honored 
to cosponsor this important resolution, and I am proud to 
reinforce our shared commitment to confronting the threat of 
terrorism. Once again, I want to thank Representative Meeks for 
drafting this resolution, and to thank this committee for its 
swift passage. With that, I yield back.
    Chairman Royce. Mr. Brad Schneider of Illinois.
    Mr. Schneider. Thank you, Chairman Royce. I want to thank 
the chairman and the ranking member for holding this markup 
today. I appreciate the timely consideration of these 
bipartisan pieces of legislation that address some of the most 
pressing security issues and threats to human rights facing the 
world today. I join with my colleagues in offering my sincerest 
condolences to the victims of the horrific terrorist attack in 
Manchester on Monday evening, many of them children, and 
condolences to their families. I condemn this senseless 
violence targeting innocent civilians in the strongest possible 
terms, and affirm the special relationship between America and 
the British people. I fully support H. Res. 355 and the 
commitment of the United States to combating terrorism that 
threatens our democratic values.
    I would like to also express my strong support for H.R. 
2484, that calls for women to be actively included and engaged 
in conflict resolution processes, and encourages the State 
Department and USAID to increase women's participation in 
peacekeeping operations. Women and girls face a 
disproportionate share of violence and economic hardship as a 
result of armed conflict, including horrendous crimes of sexual 
violence.
    A conflict resolution process that does not include women 
will not adequately address these concerns. When women are 
included, as the resolution states, negotiations are more 
likely to succeed and result in durable peace agreements. The 
bill also highlights the critical role of our State Department 
and USAID diplomats and development professionals in resolving 
conflicts throughout the world through nonmilitary means. 
Implementing this legislation will require that Congress ensure 
a robust budget for diplomacy and development, which is 
critical to a successful U.S. foreign policy.
    I am proud to be a cosponsor of H. Res. 354, condemning the 
vicious attacks against peaceful protesters by Turkish 
President's Erdogan's security detail, calling for the 
prosecution of those responsible, and urging the administration 
to take appropriate diplomatic steps to ensure that Turkish 
officials are held accountable. President Erdogan, through a 
constitutional referendum last month, has consolidated 
extraordinary power in the executive branch. Under his 
administration, press freedoms have been restricted, opposition 
party leaders jailed, and ethnic minority groups threatened. 
The United States must be candid and consistent in our support 
of democratic values and respect for human rights for the sake 
of Turkey's future, as well as for the long-term interests in 
the region of the United States and our allies.
    Furthermore, it is never acceptable for guests of our 
Government to violate our sacred right to freedom of speech on 
our own soil. Earlier this week, I joined with my colleague, 
Congressman Charlie Dent, in sending a letter to Secretary 
Tillerson condemning the thuggish attacks which occurred under 
the watchful eye of President Erdogan himself. This attack was 
a direct offense against all Americans and the rights, values, 
and freedoms that underlie the very foundation of our 
democracy. These brutal attacks that led to the hospitalization 
of peaceful protesters are tantamount to an assault on the core 
pillars of our Republic. This is not the first, but the third 
case of members of the Turkish President's security detail 
acting violently on U.S. territory.
    It must be the last. I am also proud to be a cosponsor of 
H. Res. 351, condemning the persecution and ghastly violence 
and torture against LGBTQ Chechens. I am horrified and 
extremely concerned by the recent news that Chechnya has been 
illegally arresting men suspected of being gay and forcing them 
into secret prisons. As many as 100 men are currently held in 
these barbaric prisons, and at least three have died in 
detention, not for any crimes they have committed, but simply 
for who they are and who they love. President Putin bears the 
responsibility for ending this persecution of LGBTQ people. He 
has long turned a blind eye to human rights abuses from the 
leader of Chechnya, Ramzan Kadyrov. These atrocities cannot go 
unanswered. And indeed, this resolution represents a bipartisan 
call for the Trump administration to speak out against these 
crimes, demand the release of those illegally detained, and 
help those who are fleeing the violence, and pressure Russia to 
uphold respect the human rights and hold accountable those 
responsible for these abuses. I would like to thank the 
committee again for considering these important and relevant 
bills. And with that, I yield back.
    Chairman Royce. Thank you. Ann Wagner of Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman. I want to express my 
support for all of the bills being considered here this 
morning. I would first like to express my heartfelt condolences 
to the innocent victims, children, and families of the 
Manchester tragedy. There is no coherence at all to such 
injustice, no words for such despicable hatred. And as a mother 
who, on many occasions, took her young children to a concert, 
to a festival, a gathering--to specifically target our innocent 
youth is barbaric, and, frankly, unthinkable. My heart aches 
for the loss of these families. I thank my colleagues for this 
resolution.
    And I, too, want to join the chorus of others who stand 
with the LGBT community in Chechnya. The brutality and the 
prejudice is, again, unthinkable. I am glad that this committee 
is standing together as a whole.
    I especially want to speak this morning about the Women, 
Peace, and Security Act of 2017. As a proud mother of an active 
duty United States Army captain, I am very invested in good 
solutions to conflict situations around the world. It is hard 
for me to imagine why anyone thinks it is a good idea to 
negotiate anything, let alone peace, without women at the 
table. Mothers and women worldwide should be primary 
participants in the peace negotiations that so deeply impact 
them and their families. We know that peace processes that 
include women have a 35 percent better chance of lasting at 
least 15 years. That translates not only into dollars saved, 
but lives saved. I thank my colleagues for this important 
legislation.
    Mr. Chairman, I would also like to comment on House 
Resolution 354, condemning the violence against peaceful 
protesters outside the Turkish Ambassador's residence on May 
16. Speaking on behalf of the many constituents in my district, 
Missouri's Second Congressional District, who have ties to 
Turkey, I was appalled to see such a violation of basic 
constitutional rights on American soil. I urge the Turkish 
Government to respect freedom of expression, speech, and 
assembly for all people in Turkey, and especially here in the 
United States of America. Anything less is intolerable. I would 
be proud to join my colleagues in protest, again, in front of 
the Turkish Embassy. I thank you, Mr. Chairman, and I yield 
back.
    Chairman Royce. Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman. I am proud to 
cosponsor the resolution condemning the violence and 
persecution of the LGBT community in Chechnya and the 
Manchester resolution, and I am supportive of all the 
resolutions. But I wanted just to take a moment to talk about 
what happened in Manchester and the resolution that we are 
about to pass. Our condolences go out to the families of all 
who lost loved ones and of all the injured. And at this time of 
year, like so many of us, I have been reflecting a lot on young 
people. I was on stage a couple nights ago as 500 students, my 
son included, received his high school diploma. And it is 
impossible, at a beautiful event like that, something that is 
happening in cities and towns all across America, to think 
about the horrific and vile and cowardly actions like that 
committed by this terrorist in Manchester.
    There is an opportunity at moments like this to express 
condolences and to let the citizens of Manchester and the 
citizens of England understand how resolutely we stand with 
them and how nations throughout the world stand to fight this 
evil scourge of terrorism. There is also an opportunity, 
though, to think about, particularly as we have seen the photos 
come out over the past couple of days, of the victims, to think 
about these young people whose lives were extinguished, and to 
think about all of the young people who are not much older than 
all those students getting their high school diplomas this 
month and next month, who are on the front lines fighting back 
to keep us safe, who are on the ground as first responders 
rushing when there is an attack, who do so much to keep us safe 
and to help make us the country that we are in leading this 
battle.
    This, Mr. Chairman, as you know, is a sometimes divisive 
place. It is true for this committee; it is true for the 
Congress as a whole. But when 22 lives are taken by terrorists, 
and dozens more are injured, and so many of them are children, 
are kids, there is an opportunity to pause for just a second, 
and to pause as we are getting ready to head home, to realize 
that in the midst of all of these very difficult, sometimes 
nasty battles that we are engaged in, that ultimately we are 
able to engage in these battles because of what we share. And 
it is a commitment to freedom and democracy, the same kind of 
commitment and openness that our allies share, the same kind of 
openness that made people feel comfortable to drop their kids 
off at a concert in Manchester. And it is that same commitment 
in defending that freedom that we are speaking out in support 
of when we pass this resolution.
    We have just a moment like this to be grateful that we can 
come together to remember how important it is and to let that 
guide us as we go about the rest of our work. We will never 
bring back the lives of those kids who perished in Manchester, 
but we absolutely can help to honor their memory and the memory 
of all those whose lives are taken by terrorists in fighting 
back to preserve our freedoms, to defend our freedoms, and to 
defeat this terrible scourge of terrorism. I yield back.
    Chairman Royce. We thank you for your eloquent, heartfelt 
remarks, Mr. Deutch. We now go to Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. And my colleagues on 
both sides of the aisle have, I think, so well and so 
thoroughly articulated the reasons why each of these 
resolutions are so important and ought to be supported, that I 
will be very brief in my comments. I would urge my colleagues 
to support them all. And just commenting, again, on Manchester, 
which happened so recently, you know, the first thing that 
struck me was, what kind of sick mind could have done such a 
horrible thing? To assemble a bomb made of nuts and bolts and 
nails, and then to detonate that bomb among children. What kind 
of sick mind would do such a thing? And it is the same kind of 
sick mind that drove a stolen truck through a crowd in Nice, 
France; that blew up U.S. Embassies in Kenya and Tanzania; that 
blew up trains in Madrid, Spain; that murdered innocent people 
at a nightclub here in the United States in Orlando; that 
slaughtered unarmed U.S. military personnel at Fort Hood; that 
killed and maimed innocents at the Boston Marathon; that 
butchered people at an office party in San Bernardino; and yes, 
that brought down those buildings, and that struck the 
Pentagon, not too far from here, on September 11, 2001.
    And it is radical jihadist terrorists that we and other 
nations around the world have been dealing with for a long 
time, and unfortunately we will probably have to deal with far 
into the future. And we and the other nations around the world 
need to be very serious about this. It has to be fought, yes, 
within Saudi Arabia. That is where most of those folks that hit 
us on September 11th were from. And that is why I think 
President Trump's trip recently was so important, to get those 
Sunni nations on our side. And when I say ``our side,'' I mean 
the side of freedom-loving people all over the world. And that 
is the vast majority of the people on this globe, including 
Muslims and non-Muslims. They are, overall, very peaceful 
people who just want to raise their children and be able to 
take them to a concert and not wonder if they are actually 
going to come home, or if they are going to come home 
disfigured, or blinded, or with their eardrums burst.
    You know, it is just horrific stuff that the civilized 
world is dealing with right now. So I hope that the President 
made some progress in that trip recently, because we have to 
have those folks, in particular, on our side. Because they are 
within their midst. They are here too. They are in England, 
they are all over Europe and all over the world. So it is a 
battle that the world better get serious about, because if it 
is not, there is going to be a lot more victims. And I yield 
back.
    Chairman Royce. Mr. Brad Sherman of California.
    Mr. Sherman. Thank you, Mr. Chairman, and Mr. Ranking 
member for putting together an excellent package of legislation 
for us to consider, and that appears to have the wide support 
of everyone on the committee. I look forward to marking up the 
bill on Iran, which I know that we are still working on and 
improving. As to the individual pieces of legislation, if Putin 
is going to claim sovereignty over Chechnya, he must take 
responsibility for what goes on there. And this savage and 
gruesome attack on the LGBTQ community there is simply 
outrageous. If we are able to get one of the survivors from 
Chechnya here, I think that that should be the occasion of a 
hearing either of our committee or of the relevant 
subcommittee.
    Chairman Royce. I think you are absolutely right, Mr. 
Sherman.
    Mr. Sherman. The second bill deals with this terrible 
incident at the Turkish Ambassador's residence. I look forward 
to joining with the gentleman from California and apparently 
most of the committee in demonstrating in front of that 
residence that we will not be cowed, and that free speech and 
the right to assemble continues to exist in the United States, 
even if it doesn't exist in Turkey.
    But we should go beyond this and say that unless the 
perpetrators are extradited with a waiver of their immunity 
here to the United States, that we should, by statute, prohibit 
Erdogan ever bringing a security detail back to the United 
States. They should not be given visas. All of us depend upon 
American security for our security. And if the President of 
Turkey wants to return here, he should also rely on the host 
government, just as our Ambassador relies on the host 
government in Turkey every day. It would simply be outrageous 
for us to grant visas to the same security force that has 
assaulted Americans, fled the jurisdiction, hid behind 
diplomatic immunity, and trampled on American freedoms.
    As to the resolution condemning the terrorist attack in 
Manchester, I join with the comments made earlier by so many of 
our colleagues, including the gentleman from Florida and the 
gentleman from Ohio, and agree that we need to be talking to 
our friends in Saudi Arabia about what version of Islam they 
are supporting around the world.
    Women are critical for peace and security, and I think the 
gentlelady from Missouri expressed that well, as did others.
    Finally, as to the State Department authorities bill, any 
reorganization plan needs to be submitted for review to this 
committee. But it would be good if we could prevail upon the 
Secretary of State to actually appoint people to serve in the 
various posts of the State Department. If he wants to put 
together a reorganization plan later, that is fine. But it is 
hard to have diplomacy with so very few of the appointed spots 
filled. With that, I yield back.
    Chairman Royce. Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And 
thank you for this pack of bills that put us on record on some 
areas that we definitely should be on record as Americans, and 
as Members of the United States Congress. First, about the 
Turkish Prime Minister or President who came here and allowed 
his--not only allowed, but watched as his security detail 
brutally beat American citizens, bloodied these people who have 
every right to be there protesting as U.S. citizens, and 
President Erdogan sat and watched that, I hope he gets the 
message through this legislation.
    He is not welcome in the United States if he is going to 
think that he can attack Americans for expressing their opinion 
and their opposition to his policies. Let us note that he is 
turning Turkey into what was an acceptable level of democracy 
into a country that is being turned over to the worst type of 
Islamist terrorist dictatorship that exists in the world. And 
he has arrested tens of thousands of people. This is not the 
kind of person that we should be kissing up to. And he made the 
situation even worse when he called the American Ambassador in 
a few days ago, and in an arrogant insult to the American 
people suggested that we should, in some way, apologize for the 
brutal attack on American citizens by his own bodyguards. 
Erdogan, if he thinks this way, is not welcome in our country.
    Number two, about Manchester, let us just note this 
emphasizes, again, that we are at war, and our primary enemy in 
this war are radical Islamist terrorists who murder innocent 
people. They are not at war with our military. They are not at 
war with the establishment. They are attacking and targeting 
helpless Americans and helpless other people throughout the 
world. It reminds me, when we talk about innocent people being 
killed over in Manchester, it reminds me that, of course, Great 
Britain went through another period of bombing. In World War 
II, the Nazis brutally bombed civilian targets in Britain. 
Well, Britain and the United States and Britain and the rest of 
the world stood together against this evil. And we need to 
stand together against this evil. Again, let no one doubt that 
America will stand with them in this effort to defeat the 
current evil that threatens western civilization.
    Let us note also, and I am going to put this in passing, 
that during the Second World War, the primary evil was the 
Nazis and the Japanese militarists. During that time, yes, we 
worked with Joseph Stalin in Russia. We should be working with 
Russia to defeat the radical Islamist terrorists that threaten 
western civilization.
    But let us note that I support your bill today, which would 
draw attention to the suppression of the LGBT community in 
Chechnya. The fact is, when Russia does something wrong, we 
should condemn it. We should make sure that is a policy. And 
this type of, again, repression by an ally in our fight against 
radical Islam, it behooves us to be on record against that 
policy in Russia, and let the people of the world know that we 
stand for freedom in the United States of America, and also 
don't put up with this type of bloody repression. So with that 
said, I want to thank you, Mr. Chairman. You provided great 
leadership for this committee on these moral issues.
    Chairman Royce. Thank you. Any other members seeking 
recognition? If not, hearing no further requests, the question 
occurs on the items considered en bloc. All those in favor say 
aye. All those opposed no. In the opinion of the Chair, the 
ayes have it, and the measures considered en bloc are agreed 
to. And without objection, the measures considered en bloc are 
ordered favorably reported, as amended. Staff is directed to 
make any technical and conforming changes. And the chair is 
authorized to seek House consideration under suspension of the 
rules. And that concludes our business for today.
    Again, I would like to thank not just Ranking Member Engel, 
but all of our committee members for their contributions, for 
their assistance in today's markup. The committee stands 
adjourned.
    [Whereupon, at 10:44 a.m., the committee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
